                            DEPARTMENTOF
                           DEPARTMENT OFHEALTH
                                         HEALTH&&HUMAN
                                                 HUMANSERVICES
                                                       SERVICES                                                             Office
                                                                                                                             OfficeofofInspector
                                                                                                                                        InspectorGeneral
                                                                                                                                                  General
(~f-'&d.
"ó ~l­.
"'4'011
     r.lh"d3Q
                                                                                                                            Washington,
                                                                                                                            Washington,D.C.
                                                                                                                                        D.C.20201
                                                                                                                                             20201

                                                                      SEP  255 2008

                                                                       SEP 2   2008




                TO:
                TO:                 EliasA.
                                    Elias    A. Zerhouni,
                                                  Zerhouni, M.D.
                                                             M.D.
                                    Director
                                    Director
                                    National      Institutes
                                    National Institutes of
     Health
                                                             of Health


                FROM:
                FROM:                Daniel
                                    Daniel R.    Levinson~
                                                   R.      ,4. /~
                                                      Levinson~ ~. /~

                                    Inspector General
                                    Inspector General


                SUBJECT:
                SUBJECT:            Safeguards        Over Substances
                                    Safeguards Over Controlled Controlled    Substances
                                                                      at the National Institutesat
                                                                                                 of the National Institutes of Health
                                                                                                                               Health
                                    Clinical Center
                                    Clinical     Center Pharmacy
                                                             Phannacy for      the Period
                                                                          for the     Period MayMay 2006
                                                                                                       2006 to
                                                                                                             to June
                                                                                                                June 2007
                                                                                                                     2007 (A-03-07-00353)
                                                                                                                           (A-03-07-00353)


                The attached
                The    attached finalfinal report
                                              report provides
                                                        provides the
                                                                 the results
                                                                     results of
                                                                             of our
                                                                                our review
                                                                                    review of
                                                                                           of safeguards
                                                                                              safeguards over
                                                                                                         over controlled
                                                                                                              controlled
                substances at the National Institutes of Health (NIH) Clinical Center Pharmacy for the period
                substances at the National Institutes of 


                May 2006
                May     2006 to  to June
                                     June 2007.
                                             2007.

                The NIH
                The    NIH Clinical
                               Clinical Center
                                             Center in   in Bethesda,
                                                             Bethesda, Maryland,
                                                                              Maryland, provides
                                                                                           provides clinical
                                                                                                     clinical care
                                                                                                               care to
                                                                                                                    to inpatients
                                                                                                                       inpatients and
                                                                                                                                   and
                outpatients participating in intramural research protocols. The Clinical Center Pharmacy (the
                outpatients        participating        in  intramural        research   protocols.  The  Clinical  Center   Phannacy    (the
                Pharacy) provides
                Pharmacy)         providespharmaceutical
                                                 pharmaceutical care             to these
                                                                           care to  thesepatients.
                                                                                            patients. The
                                                                                                       ThePharmacy
                                                                                                            Pharacy procures
                                                                                                                        procures and
                                                                                                                                  and
                dispenses certain addictive drugs, the possession and use of which are regulated under the
                dispenses certain addictive drugs, the possession and use of


                Controlled        Substances Act
                Controlled Substances                Act (the
                                                            (the Act)
                                                                   Act) of  of 1970,
                                                                               1970, asas amended,
                                                                                          amended, and
                                                                                                     and implementing
                                                                                                           implementing regulations.
                                                                                                                           regulations. The
                                                                                                                                          The
                Act
                Act classifies
                       classifies these
                                      these drugs
                                                drugs as  as controlled
                                                              controlled substances
                                                                               substances and
                                                                                            and divides
                                                                                                 divides them
                                                                                                          them among
                                                                                                                 among five
                                                                                                                         five schedules
                                                                                                                              schedules based
                                                                                                                                          based
                on   their   medical       use   and     potential     for   abuse.   Consistent   with the  requirements
                on their medical use and potential for abuse. Consistent with the requirements of the Act, the               of the Act, the
                Phannacy
                Pharmacy must    must securely
                                          securely storestore controlled
                                                                 controlled substances
                                                                                 substances and
                                                                                              and maintain
                                                                                                   maintain complete
                                                                                                              complete and
                                                                                                                         and accurate
                                                                                                                              accurate
                inventory
                inventory records of all transactions involving controlled substances. This report focuses
                                records      of  all  transactions         involving    controlled  substances.   This  report  focuses on
                                                                                                                                         on
                Schedule
                Schedule II     II controlled
                                   controlled substances
                                                     substances (Schedule
                                                                       (Schedule II  II substances)
                                                                                        substances) because
                                                                                                      because they
                                                                                                                they have
                                                                                                                      have the
                                                                                                                            the highest
                                                                                                                                highest
                potential
                potential for  for abuse       among controlled
                                     abuse among           controlled substances
                                                                             substaces with
                                                                                          withan
                                                                                               anaccepted
                                                                                                   accepted medical
                                                                                                              medical use.
                                                                                                                        use.

                Our
                Our objective
                    objective was
                              was to
                                   to detennine
                                      determine whether
                                                  whether the the Phannacy
                                                                  Pharmacycomplied
                                                                           complied with
                                                                                    with applicable
                                                                                         applicable requirements
                                                                                                     requirements to
                                                                                                                   to
                secure
                secure and
                       and account
                           account for
                                    for its
                                         its Schedule
                                             Schedule IIII substances.
                                                            substances.

                The
                 The Pharmacy
                      Pharmacy generally
                                 generally complied
                                            complied with
                                                       with applicable
                                                            applicable requirements
                                                                        requirements to
                                                                                      to account
                                                                                         account for
                                                                                                  for its
                                                                                                       its Schedule
                                                                                                           Schedule IIII
                substances.  However,    the  Phannacy  did  not always  appropriately  secure or have
                 substances. However, the Pharmacy did not always appropriately secure or have adequate  adequate
                internal
                 internal controls
                          controls over
                                   over the
                                         the substances.
                                              substances.                             .

                    .•   The
                         The Phannacy
                             Pharmacystored
                                       storedSchedule
                                              ScheduleIIIIsubstances
                                                           substances in
                                                                       inan
                                                                          anunlocked
                                                                             unlocked storage
                                                                                       storage cabinet
                                                                                                cabinetand
                                                                                                        and in
                                                                                                             in an
                                                                                                                 an
                         unlocked lockbox located in a refrigerator with no lock.
                         unlocked lockbox located in a refrigerator with no lock.
Page 2 – Elias A. Zerhouni, M.D.


   •   The Pharmacy did not always segregate duties and responsibilities for ordering and
       receiving shipments of Schedule II substances among pharmacists.

These deficiencies occurred because Pharmacy officials did not comply with Federal
requirements or Clinical Center procedures for securing Schedule II substances and were
unaware of the requirement to segregate duties. As a result, Schedule II substances were
vulnerable to loss, diversion, and mismanagement. We discussed our findings with the chief of
the pharmaceutical procurement and control section, who concurred and immediately
implemented corrective actions.

We recommend that NIH ensure that the Pharmacy continues to enforce its policies and
procedures to secure and control Schedule II substances.

In its comments on our draft report, NIH concurred with our recommendation.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through e-mail at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-03-07-00353 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      SAFEGUARDS OVER
CONTROLLED SUBSTANCES AT THE
NATIONAL INSTITUTES OF HEALTH
 CLINICAL CENTER PHARMACY
       FOR THE PERIOD
    MAY 2006 TO JUNE 2007




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-03-07-00353
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The National Institutes of Health (NIH), an agency within the U.S. Department of Health and
Human Services, conducts and supports medical research. As part of its research function, NIH
provides clinical care to inpatients and outpatients participating in intramural research protocols
at its Clinical Center in Bethesda, Maryland. The Clinical Center Pharmacy (the Pharmacy)
provides pharmaceutical care to these patients. The Pharmacy procures and dispenses certain
addictive drugs, the possession and use of which are regulated under the Controlled Substances
Act (the Act) of 1970, as amended (21 U.S.C §§ 801 et seq.), and implementing regulations
(21 CFR pts. 1300–1316). The Act classifies these drugs as controlled substances and divides
them among five schedules based on their medical use and potential for abuse.

The Drug Enforcement Administration (DEA) is the primary Federal agency responsible for
enforcing the Act. Consistent with the requirements of the Act, the Pharmacy is required to
register with DEA. All DEA registrants must securely store controlled substances and maintain
complete and accurate inventory records of all transactions involving controlled substances in
accordance with the Act.

This report addresses the Pharmacy’s safeguards over Schedule II controlled substances
(Schedule II substances) for the period May 2006 to June 2007. We focused on Schedule II
substances because they have the highest potential for abuse among controlled substances with
an accepted medical use.

OBJECTIVE

Our objective was to determine whether the Pharmacy complied with applicable requirements to
secure and account for its Schedule II substances.

SUMMARY OF FINDINGS

The Pharmacy generally complied with applicable requirements to account for its Schedule II
substances. Invoices, inventory records, and other documents showed that the Pharmacy
appropriately ordered and inventoried the substances and maintained appropriate documentation
of their administration and dispensing. However, the Pharmacy did not always appropriately
secure or have adequate internal controls over its Schedule II substances.

   •   The Pharmacy stored Schedule II substances in an unlocked storage cabinet and in an
       unlocked lockbox located in a refrigerator with no lock, both located in the Pharmacy
       dispensing unit.

   •   The Pharmacy did not always segregate duties and responsibilities for ordering and
       receiving shipments of Schedule II substances among pharmaceutical procurement and
       control section pharmacists.



                                                 i
These deficiencies occurred because Pharmacy officials did not comply with Federal
requirements or Clinical Center procedures for securing Schedule II substances and were
unaware of the requirement to segregate duties. As a result, Schedule II substances were
vulnerable to loss, diversion, and mismanagement.

We discussed our findings with the chief of the pharmaceutical procurement and control section,
who concurred and immediately implemented corrective actions.

RECOMMENDATION

We recommend that NIH ensure that the Pharmacy continues to enforce its policies and
procedures to secure and control Schedule II substances.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In its comments on our draft report, NIH concurred with our recommendation. NIH’s comments,
except for technical comments, are included as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              National Institutes of Health .................................................................................1
              Controlled Substances Act of 1970.......................................................................1
              Clinical Center Pharmacy .....................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATION................................................................................3

          SECURITY AND INTERNAL CONTROL WEAKNESSES .........................................4
               Weaknesses in Securing Stored Schedule II Substances ......................................4
               Lack of Segregation of Duties ..............................................................................4

          PHARMACY’S CORRECTIVE ACTIONS....................................................................5

          RECOMMENDATION ....................................................................................................5

          NATIONAL INSTITUTES OF HEALTH COMMENTS ...............................................5

APPENDIX

          NATIONAL INSTITUTES OF HEALTH COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

National Institutes of Health

The National Institutes of Health (NIH), an agency within the U.S. Department of Health and
Human Services, conducts and supports medical research. As part of its research function, NIH
provides clinical care to inpatients and outpatients participating in intramural research protocols
at its Clinical Center in Bethesda, Maryland. The Clinical Center Pharmacy (the Pharmacy)
provides pharmaceutical care to these patients. The Pharmacy procures and dispenses certain
addictive drugs, the possession and use of which are regulated under the Controlled Substances
Act (the Act) of 1970, as amended (21 U.S.C §§ 801 et seq.), and implementing regulations
(21 CFR pts. 1300–1316).

Controlled Substances Act of 1970

The Act classifies certain federally regulated drugs as controlled substances and divides them
among five schedules based on their medical use and potential for abuse (21 U.S.C. § 812). This
report focuses on Schedule II controlled substances (Schedule II substances) because they have
the highest potential for abuse among controlled substances with an accepted medical use. Some
examples of Schedule II substances include OxyContin®, Duragesic®, Roxicodone®, and
Dilaudid®.

The Drug Enforcement Administration (DEA) is the primary Federal agency responsible for
enforcing the Act (21 CFR § 1300.01(b)(3)). Consistent with the requirements of the Act, the
Pharmacy is required to register with DEA (21 U.S.C § 823(b) and 21 CFR § 1301.11). All
DEA registrants must securely store controlled substances and maintain complete and accurate
inventory records of all transactions involving controlled substances in accordance with the Act
(21 CFR §§ 1301.71 and 1304.11).

Clinical Center Pharmacy

This report addresses safeguards over Schedule II substances at the Pharmacy, where a total of
45 pharmacists are authorized to access Schedule II substances and fill patient prescriptions. The
chief of the pharmaceutical procurement and control section (the control section) has primary
responsibility for securing and accounting for the Pharmacy’s Schedule II substances.

Upon their arrival, Schedule II substances are transported from NIH’s delivery dock to the
control section. This section counts and inventories the substances and stores them in a vault
until transfer to the Pharmacy dispensing unit. After transfer, the dispensing unit stores its
Schedule II substances in a medications vault and in Pyxis Medstations (Medstations), which are
automated, secured, medication-dispensing machines located throughout the inpatient and
outpatient clinical care units. The dispensing unit also stores outpatient clinic Schedule II




                                                 1
prescriptions awaiting patient pickup in a storage cabinet and intravenous solution bags prepared
with Schedule II substances in a refrigerator.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Pharmacy complied with applicable requirements to
secure and account for its Schedule II substances.

Scope

We limited our review to Schedule II substances because they have the highest potential for
abuse among controlled substances with an accepted medical use.

We selected for review 4 of the 103 Schedule II substances that the Pharmacy purchased, stored,
or dispensed from May 1, 2006, through June 4, 2007. According to the Pharmacy’s
procurement summary record for our audit period, the four Schedule II substances represented
198,420 unit doses, or 39 percent of the 508,161 total unit doses purchased during the period.

We limited our review of the Pharmacy’s internal controls to those related to securing and
accounting for Schedule II substances.

We performed our fieldwork at the Pharmacy and the inpatient and outpatient clinical care units
at the Clinical Center in Bethesda, Maryland.

Methodology

To meet our objective, we:

    •   reviewed applicable Federal regulations and Clinical Center policies and procedures for
        securing and accounting for Schedule II substances; 1

    •   toured the Pharmacy and inpatient and outpatient clinical care units and observed
        Medstations and other storage containers to determine whether Schedule II substances
        were properly secured;

    •   interviewed employees responsible for picking up and disposing of medical pathological
        waste containers to determine how the Pharmacy handled waste from Schedule II
        substances;

    •   analyzed discrepancy reports, diversion reports, and waste reports for Medstations in the
        Pharmacy and clinical care units;
1
 The Federal Government has exclusive jurisdiction over the NIH campus; therefore, Maryland law regarding the
registration and handling of controlled substances does not apply.



                                                       2
   •   obtained the Pharmacy’s procurement summary record for all Schedule II substances
       procured from May 1, 2006, through June 4, 2007;

   •   judgmentally selected 4 of the 103 Schedule II substances that the Pharmacy purchased,
       stored, or dispensed during our audit period and observed and documented for 1 day:

           o the transfer of the substances from the NIH loading dock to the control section;

           o the check-in of the substances at the control section, which counted and
             inventoried the items and stored them in the vault; and

           o the transfer of the substances to the Pharmacy dispensing unit and to the
             Medstations in the inpatient and outpatient clinical care units;

   •   observed and documented how the Pharmacy returned outdated/expired Schedule II
       substances to the original distributor; and

   •   interviewed the chief of the control section and discussed our findings and
       recommendation with Pharmacy officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

The Pharmacy generally complied with applicable requirements to account for its Schedule II
substances. Invoices, inventory records, and other documents showed that the Pharmacy
appropriately ordered and inventoried the substances and maintained appropriate documentation
of their administration and dispensing. However, the Pharmacy did not always appropriately
secure or have adequate internal controls over its Schedule II substances.

   •   The Pharmacy stored Schedule II substances in an unlocked storage cabinet and in an
       unlocked lockbox located in a refrigerator with no lock, both located in the Pharmacy
       dispensing unit.

   •   The Pharmacy did not always segregate duties and responsibilities for ordering and
       receiving shipments of Schedule II substances among control section pharmacists.

These deficiencies occurred because Pharmacy officials did not always comply with Federal
requirements or Clinical Center procedures for securing Schedule II substances and were
unaware of the requirement to segregate duties. As a result, Schedule II substances were
vulnerable to loss, diversion, and mismanagement.



                                               3
SECURITY AND INTERNAL CONTROL WEAKNESSES

Weaknesses in Securing Stored Schedule II Substances

Federal regulations (21 CFR § 1301.75(b)) state that Schedule II substances “shall be stored in a
securely locked, substantially constructed cabinet. However, pharmacies and institutional
practitioners may disperse such substances throughout the stock of noncontrolled substances in
such a manner as to obstruct the theft or diversion of the controlled substances.” The Clinical
Center’s procedures state that “[a]ll controlled substances are stored in a secured and locked
storage device or Pyxis Medstation.” 2

The Pharmacy generally stored Schedule II substances as required by Federal regulations and
Clinical Center procedures; however, we found the weaknesses described below.

    •   An unlocked storage cabinet, located in the Pharmacy dispensing unit, contained filled
        outpatient clinic Schedule II prescriptions awaiting pickup. These prescriptions were
        segregated on a separate shelf, not dispersed throughout the stock of noncontrolled
        substances. A number of pharmacists told us that the lock had been broken for about a
        week. They stated, and we observed, that because of the need for frequent access to the
        cabinet, pharmacists generally left the cabinet unlocked as a matter of convenience.

    •   An unlocked stainless steel lockbox, stored in a Pharmacy dispensing unit refrigerator
        with no lock, contained several intravenous solution bags prepared with Schedule II
        substances. The chief of the control section told us that because pharmacists needed to
        access the lockbox frequently, they generally left the box unlocked.

Because the Pharmacy did not always comply with Federal requirements or Clinical Center
procedures for securing Schedule II substances, the substances were vulnerable to loss and
diversion.

Lack of Segregation of Duties

Office of Management and Budget Circular A-123, § II.C, “Management’s Responsibility for
Internal Control,” states: “Control activities include policies, procedures and mechanisms in
place to help ensure that agency objectives are met. . . . [E]xamples include: proper segregation
of duties (separate personnel with authority to authorize a transaction, process the transaction,
and review the transaction). . . .” No one individual should control all key aspects of a
transaction or event.

The chief of the control section was responsible for ordering Schedule II substances, accepting
delivery, recording receipt in the inventory records, and storing the substances in the vault.
Other pharmacists in the section sometimes—but not always—assisted in these duties. Because


2
Appendix 1(I)(A), “NIH Warren Grant Magnuson Clinical Center Nursing and Patient Care Services Procedure:
Controlled Substances” (July 1983, revised November 2003).



                                                     4
the Pharmacy did not always segregate duties among pharmacists, there was undue risk of
diversion and mismanagement of Schedule II substances.

PHARMACY’S CORRECTIVE ACTIONS

We discussed our findings with the chief of the control section, who concurred and immediately
implemented the following corrective actions.

   •   The Pharmacy repaired the broken lock on the prescription storage cabinet in the
       Pharmacy dispensing unit and assigned responsibility for the key to one pharmacist in
       each shift. In addition, pharmacists were instructed to lock the lockbox stored in the
       refrigerator at all times.

   •   The Pharmacy developed a new policy that segregated duties for ordering and receiving
       Schedule II substances among two or more control section pharmacists.

We verified that the Pharmacy had implemented these security controls.

RECOMMENDATION

We recommend that NIH ensure that the Pharmacy continues to enforce its policies and
procedures to secure and control Schedule II substances.

NATIONAL INSTITUTES OF HEALTH COMMENTS

In its comments on our draft report, NIH concurred with our recommendation and offered some
technical comments, which we addressed as appropriate. NIH’s comments, except for technical
comments, are included as the Appendix.




                                               5
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
